                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00232-110


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

 VA Loma Linda Healthcare System 

       Loma Linda, California 





March 31, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA



                                             Glossary
                       AUD                alcohol use disorder
                       CBOC               community based outpatient clinic
                       DWHP               designated women’s health provider
                       EHR                electronic health record
                       EOC                environment of care
                       FY                 fiscal year
                       MH                 mental health
                       MM                 medication management
                       NIAAA              National Institute on Alcohol Abuse and
                                          Alcoholism
                       NM                 not met
                       OIG                Office of Inspector General
                       PACT               Patient Aligned Care Teams
                       PCC                primary care clinic
                       PCP                primary care provider
                       PII                personally identifiable information
                       RN                 registered nurse
                       VHA                Veterans Health Administration
                       VISN               Veterans Integrated Service Network
                       WH                 women’s health




VA OIG Office of Healthcare Inspections
                                CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          2


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of February 3, 2014, at the
Rancho Cucamonga, CA, CBOC which is under the oversight of the
VA Loma Linda Healthcare System and Veterans Integrated Service Network 22:

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	   Personally identifiable information is protected by securing laboratory specimens
     during transport from the Rancho Cucamonga CBOC to the parent facility.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Staff consistently complete diagnostic assessments for patients with a positive
     alcohol screen.

	   Staff provide education and counseling for patients with positive alcohol screen and
     drinking alcohol above National Institute on Alcohol Abuse and Alcoholism limits.

	   Staff consistently document the offer of further treatment to patients diagnosed with
     alcohol dependence.

	   Registered Nurse Care Managers receive motivational interviewing training within
     12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where medications were administered, prescribed, or modified.

	   Provide medication counseling/education that includes the fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                     i
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15-19, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                     ii
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA



                Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

   	   Determine whether the CBOCs are compliant with EOC requirements.

   	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
        care of patients with AUD.

   	   Determine compliance with requirements for the clinical oversight and patient
        education of fluoroquinolones for outpatients.

   	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

   	   EOC

   	   AUD

   	   MM

   	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.




VA OIG Office of Healthcare Inspections                                                     1
                            CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.

Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




a
 Includes 93 CBOCs in operation before March 31, 2013. 

b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active 

alcohol use disorders. Scores range from 0–12.



VA OIG Office of Healthcare Inspections                                                                            2
                                  CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted a physical inspection of the
Rancho Cucamonga CBOC. The table below shows the areas reviewed for this topic. The area
marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.)
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                               3
                                  CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


NM              Areas Reviewed (continued)                                    Findings
 X     PII is protected on laboratory specimens           Transport bags are not equipped with locking
       during transport so that patient privacy is        devices to protect PII on laboratory specimens
       maintained.                                        during transport from the Rancho Cucamonga
                                                          CBOC to the parent facility.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that managers ensure that PII is protected by securing laboratory
specimens during transport from the Rancho Cucamonga CBOC to the VA Loma Linda
Healthcare System.




VA OIG Office of Healthcare Inspections                                                                    4
                                  CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 6 (16 percent) of 38 patients who had
                                                          positive alcohol use screens.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 3 of 21 patients who had positive alcohol use
       drinking are provided for patients with positive   screens.
       alcohol screens and drinking levels above
       NIAAA guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for three of six patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitor them
       and their alcohol use condition.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 10 of 25 RN Care Managers did
       received MI training within 12 months of           not receive MI training within 12 months of
       appointment to PACT.                               appointment to PACT.
       CBOC/PCC RN Care Managers have
       received National Center for Health Promotion
       and Disease Prevention approved health
       coaching training (most likely TEACH for
       Success) within 12 months of appointment to
       PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommend that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                       5
                                  CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


3. We recommended that that CBOC/PCC staff provide education and counseling for patients
with positive alcohol screen and drinking alcohol above NIAAA limits.

4. We recommended that CBOC/PCC staff consistently document the offer of further
treatment to patients diagnosed with alcohol dependence.

5. We recommended that CBOC/PCC RN Care Managers receive motivational interviewing
training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                               6
                                  CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 26 of 28 patient EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   18 (47 percent) of 38 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

6. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

7. We recommended that staff provide medication counseling/education that includes the
fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                                    7
                                  CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                               8
                                                                      CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                                                                 Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                 Uniquesd                                    Encountersd

                             Station                  CBOC
       Location      State              Localitye                 MHg         PCh        Otheri       All       MHg         PCh       Otheri        All
                                #                      Sizef
    Palm Desert       CA     605GC       Urban        Large        875       7,930       1,847      8,310       4,513      12,676      3,404      20,593
    Murrieta          CA      605GB       Rural       Large       1,466      7,088        705       7,536       5,948      14,282      1,490      21,720
    Rancho
                      CA      605GE      Urban        Large       1,238      4,949        625       5,258       7,408      9,793       1,677      18,878
    Cucamonga
    Victorville       CA      605GA      Urban       Mid-Size     1,337      4,332        296       4,803       9,838      11,063       860       21,761
    Corona
    (Riverside        CA      605GD      Urban       Mid-Size      860       3,461        96        3,811       4,569      7,512        310       12,391
    County), CA
 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – Mental Health Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician.

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    9
                            CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                 Specialty Care                                                 Tele-Health
               CBOC                                            Ancillary Servicesl
                                   Servicesk                                                     Servicesm
    Palm Desert                  Palliative Care                  Audiology                  Tele Primary Care
                                                              MOVE! Programn
                                                          Diabetic Retinal Screening
    Murrieta                            ---                   MOVE! Program                  Tele Primary Care
                                                          Diabetic Retinal Screening
    Rancho Cucamonga                    ---                   MOVE! Program                  Tele Primary Care
                                                          Diabetic Retinal Screening
    Victorville                         ---                   MOVE! Program                  Tele Primary Care

    Corona (Riverside                   ---                     MOVE! Program                         ---
    County), CA


 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                         CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                                                                    Appendix B


                                                            PACT Compass Metrics





Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment or
one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the division
level.


 VA OIG Office of Healthcare Inspections                                                                                                                     11
                                                                      CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                12
                                                                       CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA




 Data efinition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
 VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
 assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
 primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                       CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA




 Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
 care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded
 from this metric.

VA OIG Office of Healthcare Inspections                                                                                                                    14
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                   Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:       March 25, 2014

          From:        Director, Desert Pacific Healthcare Network (10N22)

       Subject:        CBOC and PCC Review of the VA Loma Linda
                       Healthcare System, Loma Linda, CA

             To:       Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



       1. I concur with the findings and recommendations in the report of the
          CBOC and PCC Review of the VA Loma Linda Healthcare System,
          Loma Linda, CA.

       2. 	 If you have any questions regarding our responses and actions to the
           recommendations in the report, please contact me at (562) 826-5963.




VA OIG Office of Healthcare Inspections                                                    15
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                Memorandum


           Date:       March 24, 2014

          From:        Director, VA Loma Linda Healthcare System (605/00)

       Subject:        CBOC and PCC Review of the VA Loma Linda
                       Healthcare System, Loma Linda, CA

             To:       Desert Pacific Healthcare Network (10N22)




       1. I concur with the Loma Linda VA Medical Center’s response and action

       plans as detailed within this report.




VA OIG Office of Healthcare Inspections                                                    16
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that PII is protected by
securing laboratory specimens during transport from the Rancho Cucamonga CBOC to
the parent facility.

Concur

Target date for completion: March 24, 2014

Facility response: The facility has completed the re-training of all VHA and contract
couriers involved in the transport of laboratory specimens from the CBOC to the main
laboratory. Padlocks are now used to close specimen containers. Padlocks will be
attached by the staff of the submitting location (CBOC) before the courier takes
possession of the container. The Lab Specimen Tracking List has been updated
clarifying steps for securing personal identifying information during transport. Staff have
been trained on new process for securing containers during transport.

Recommendation 2. We recommend that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: July 31, 2014

Facility response: The facility will educate the CBOC/Primary Care Clinic staff on VHA
Audit C assessment requirements. Each day, a list of patients who have been
determined to have had a positive Audit C screen, is uploaded onto a secured
SharePoint site for CBOC/PCC Care Managers to obtain and follow up with an
additional assessment as warranted. Compliance will be determined through ongoing
EHR review that will be reported to Quality Council quarterly.

Recommendation 3. We recommended that CBOC/PCC staff provide education and
counseling for patients with positive alcohol screen and drinking alcohol above NIAAA
limits.

Concur

Target date for completion: July 31, 2014




VA OIG Office of Healthcare Inspections                                                    17
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


Facility response: The facility will educate the CBOC/Primary Care Clinic staff on VHA
Audit C education and counseling requirements and NIAAA drinking limits. Each day, a
list of patients who have been determined to have had a positive Audit C screen, is
uploaded onto a secured SharePoint site for CBOC/PCC Care Managers to obtain and
follow up with an additional education and counseling. Compliance will be determined
through ongoing EHR review that will be reported to Quality Council quarterly.


Recommendation 4. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: July 31, 2014

Facility response: The facility will educate the CBOC/Primary Care Clinic staff on VHA
Audit C documentation requirements for further treatment options that are to be offered
to patients diagnosed with alcohol dependence. Each day, a list of patient who have
been determined to have had a positive Audit C screen, is uploaded onto a secured
SharePoint site for CBOC/PCC Care Managers to obtain and follow up with notifying the
patient of the additional treatment options. Compliance will be determined through
ongoing EHR review that will be reported to Quality Council quarterly.


Recommendation 5. We recommended that CBOC/PCC RN Care Managers receive
motivational interviewing training within 12 months of appointment to PACT.

Concur

Target date for completion: July 31, 2014

Facility response: CBOC/PCC RN Care Managers will receive motivational
interviewing (MI) training within 12 months of appointment to PACT by adding MI
Training to the TMS Learning Plan and scheduling the training in the 2014 MI Training
Calendar. Confirmation of attendance will occur at the time of the training, and those
who are scheduled but are not in attendance will be notified of the date and time of the
next MI training. Compliance will be audited every 6 months by completing a review of
newly hired RN Care Managers by pulling a report from TMS.


Recommendation 6. We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: July 31, 2014



VA OIG Office of Healthcare Inspections                                                    18
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA


Facility response: The facility will re-train physicians on the medication reconciliation
process. This will include a review of the medication reconciliation policy in addition to
specific training related to fluoroquinolones and other antibiotics. Three training
sessions will be held between now and June 15, 2014. The facility will conduct an EHR
review of patients who have been newly prescribed fluoroquinolones to determine
compliance with conducting medication reconciliation at the time of the patient’s visit.
The audit results will be reported to Quality Council on a quarterly basis.

Recommendation 7. We recommended that staff provide medication counseling/
education that includes the fluoroquinolone.

Concur

Target date for completion: July 31, 2014

Facility response: The facility will re-train staff, physicians and pharmacists on the
need to routinely perform and document medication counseling/education in EHR that
specifically includes newly prescribed fluroquinolones. The medication reconciliation
template will include the education/training provided to the patient regarding
fluroquinolone use. The facility will conduct an EHR review to determine compliance
with documentation of counseling/education. The audit results will be reported to Quality
Council on a quarterly basis.




VA OIG Office of Healthcare Inspections                                                    19
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Yoonhee Kim, PharmD Team Leader
Contributors            Kathleen Shimoda, BSN
                        Jovie Yabes, RN
Other                   Daisy Arugay, MT
Contributors            Lin Clegg, PhD
                        Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Jennifer Reed, RN, MSHI
                        Simonette Reyes, RN
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    20
                        CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Desert Pacific Healthcare Network (10N22)
Director, VA Loma Linda Healthcare System (605/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: Ken Calvert, Paul Cook, Gary Miller,
 Gloria Negrete McLeod, Raul Ruiz, Mark Takano


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    21
                             CBOC and PCC Review at VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
